OFFICE OF THE
SECRETARY
Inadequate Practice
and Management Hinder
Incident Detection
and Response
FINAL REPORT NO. OIG-14-017-A
APRIL 24, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          Office of Inspector General
                                                          Washington, D.C. 20230




April 24, 2014

MEMORANDUM FOR: 	 Simon Szykman
                  Chief Information Officer


FROM:                         Allen Crawley
                                                     f l/J1J
                                                   {,T~
                                                                       ~~~~
                              Assistant Inspector General for Systems Acquisition
                                and IT Security

SUBJECT:                      Inadequate Praaice and Management Hinder Incident Deteaion
                                and Response-Final Report No. OIG-14-017-A

Attached please find the final 	report of our audit of the Department's incident detection and
response practices. In accordance with the Federal Information Security Management Act of
2002, we reviewed incident detection and response practices at four bureaus: Bureau of
Economic Analysis (BEA), Bureau of Industry and Security (BIS), International Trade
Administration (ITA), and United States Patent and Trademark Office (USPTO). We also
evaluated these capabilities at the Herbert C. Hoover Building Security Operations Center
(SOC). Our objective was to determine whether key security measures are in place to
adequately monitor networks, detect malicious activities, and handle cyber incidents.

We found that (I) bureaus' actions in response to suspicious network activities may not stop
cyber attacks in a timely manner and (2) lack of collaboration prevents the bureaus from
realizing full benefits of incident detection and response capabilities provided by Managed
Trusted Internet Protocol Services.

We have summarized your response in the report and included the formal response as
appendix B. The final report will be posted on the OIG's website pursuant to section SL of the
Inspector General Act of 1978, as amended.

In accordance with Departmental Administrative Order 213-5, please submit to us within 60
calendar days of the date of this memorandum an action plan that responds to the
recommendations in this report

We appreciate the cooperation and courtesies extended to us by your staff and bureau staff
during our audit. If you have any questions or concerns about this report, please contact me at
(202) 482-1855 or Dr. Ping Sun, Director for IT Security, at (202) 482- 6121.
Attachment

cc:   Kirit Amin, Deputy Chief Information Officer and Chief Technology Officer
      Brian Callahan, Chief Information Officer, BEA
      Eddie Donnell, Acting Chief Information Officer, BIS
      Ken Berman, Acting Chief Information Officer, ITA
      John B. Owens II, Chief Information Officer, USPTO
      Rod Turk, Director, Office of Cyber Security
      Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                             Report In Brief                                         APRIL 24, 2014



Background                          OFFICE OF THE SECRETARY
Pervasive and sustained cyber       Inadequate Practice and Management Hinder Incident Detection
attacks against the United          and Response
States could have a devastating
effect on federal and nonfeder-     OIG-14-017-A
al systems, disrupt the opera-
tions of governments and busi-      WHAT WE FOUND
nesses, and impact the lives of     As part of our FISMA audit work, we evaluated incident detection and response
the American people.                capabilities at four Department of Commerce bureaus: the Bureau of Economic
The Department of Com-              Analysis, Bureau of Industry and Security, International Trade Administration, and
merce is under threat because       United States Patent and Trademark Office. We also evaluated these capabilities at the
of its reliance on Internet-        Herbert C. Hoover Building Security Operations Center (SOC) within the Office of the
based technologies, which in-       Secretary. We found that
terconnect its IT systems and           1.   Bureaus’ actions in response to suspicious network activities may not stop cyber
facilitate business with the                 attacks in a timely manner. All bureaus that we reviewed have established an
public. Having effective inci-               incident detection and response capability, although the degree of capabilities
dent detection and response is               varies. To determine how the bureaus respond to real-time incidents, we
crucial to minimizing the im-                performed external testing against their Web sites from the Internet. Only one
pact of cyber attacks and                    bureau intervened to completely block our test. The rest either took no action
maintaining the Department’s                 or did not take timely action in response to our test.
business operations.                    2. 	 Lack of collaboration prevents the bureaus from realizing the full benefits of incident
                                             detection and response capabilities provided by Managed Trusted Internet Protocol
                                             Services (MTIPS). MTIPS offers Internet and bundled security services that
Why We Did This Review                       bureaus use to comply with the Office of Management and Budget's Trusted
                                             Internet Connection initiative. We found that bureaus do not consider MTIPS
The Federal Information Se-                  security services effective in supporting incident detection and response. We
curity Management Act                        found that most communication between bureaus and the provider occurred
(FISMA) of 2002 requires fed-                when they initiated MTIPS services—and that little communication related to
eral agencies to establish inci-             security services has occurred since then. In addition, bureaus indicated that
dent response capabilities.                  they were not receiving significant incident monitoring and detection services.
Performing incident response
effectively is a complex un-        WHAT WE RECOMMEND
dertaking that requires con-
tinual monitoring for attacks;      We recommend that the Department’s Chief Information Officer work with the
                                    bureaus’ management to ensure that
establishing clear procedures
for prioritizing handling of            1. 	 Bureaus follow the National Institute of Standards and Technology’s Computer
incidents; collecting, analyzing,            Security Incident Handling Guide to take timely action in response to potential
and reporting data; and com-                 cyber attacks.
munication within and outside           2. 	 Bureaus without around-the-clock SOC coverage work with the MTIPS
of the organization.                         provider to evaluate MTIPS services to fill gaps in SOC coverage after business
Our objective in conducting                  hours.
this audit was to determine             3. 	 Bureaus interact with the MTIPS provider to (a) explore opportunities that
whether key security                         leverage MTIPS services to reduce or eliminate security services currently
measures are in place to ade-                handled by the bureau and (b) ensure that MTIPS security services are fully
quately monitor networks,                    delivered and effectively utilized.
detect malicious activities,
and handle cyber incidents.             4. 	 Determine the feasibility and cost effectiveness of independently assessing
                                             incident management capabilities at all bureaus’ SOCs.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Objective, Findings, and Recommendations ...............................................................................................2
 
   I.	      Bureaus’ Actions in Response to Suspicious Network Activities May Not Stop 

            Cyber Attacks in a Timely Manner .................................................................................................2
 
   II.	     Lack of Collaboration Prevents the Bureaus From Realizing Full Benefits of 

            Incident Detection and Response Capabilities Provided by Managed Trusted 

            Internet Protocol Services ................................................................................................................4
 
   Other Matter.................................................................................................................................................6
 
   Recommendations........................................................................................................................................6
 
Summary of Agency Response and OIG Comments................................................................................8
 
Appendix A: Objective, Scope, and Methodology.....................................................................................9
 
Appendix B: Agency Response ................................................................................................................... 11
 




FINAL REPORT NO. OIG-14-017-A
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


Introduction 

Pervasive and sustained cyber attacks against the United States could have a devastating effect
on federal and nonfederal systems, disrupt the operations of governments and businesses, and
impact the lives of the American people. The Department is under constant threat because of
its reliance on Internet-based technologies, which interconnect its IT systems and facilitate
business with the public. Thus, having effective incident detection and response is crucial to
minimize the impact of cyber attacks and maintain the Department’s business operations.

Our June 2013 Economic Development Administration (EDA) audit1 found that EDA’s critical
incident response decisions were based on inaccurate information and that deficiencies in the
Department’s incident response program impeded EDA’s response, which resulted in a
prolonged disruption of EDA’s normal business operations and the unnecessary spending of
more than $2.7 million for its recovery activities. This review highlighted challenges that the
Department faces when responding to a cyber incident.

The Federal Information Security Management Act (FISMA)2 requires federal agencies to
establish incident response capabilities. Performing incident response effectively is a complex
undertaking that requires continual monitoring for attacks; establishing clear procedures for
prioritizing handling of incidents; collecting, analyzing, and reporting data; and communication
within and outside of the organization.


 




                                                            
1
  U.S. Department of Commerce Office of Inspector General, June 26, 2013. Malware Infections on EDA's Systems
Were Overstated and the Disruption of IT Operations Was Unwarranted, OIG-13-027-A. Washington, DC: DOC OIG.
2
  The Federal Information Security Management Act of 2002 (FISMA), 44 U.S.C § 3541 (2002), et seq., requires
agencies to secure systems through the use of cost-effective management, operational, and technical controls. The
statute’s goal is to provide adequate security commensurate with the risk and extent of harm resulting from the
loss, misuse, or unauthorized access to or modification of information collected or maintained by or on behalf of
an agency. In addition, FISMA requires inspectors general to evaluate agencies’ information security programs and
practices by assessing a representative subset of agency systems, and results are reported to the Office of
Management and Budget, the Department of Homeland Security, and Congress annually.


FINAL REPORT NO. OIG-14-017-A                                                                                       1
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


Objective, Findings, and Recommendations 

As part of our FISMA audit work, we evaluated incident detection and response capabilities at
four bureaus: Bureau of Economic Analysis (BEA), Bureau of Industry and Security (BIS),
International Trade Administration (ITA), and United States Patent and Trademark Office
(USPTO). We also evaluated these capabilities at the Herbert C. Hoover Building (HCHB)
Security Operations Center (SOC). HCHB SOC, which is part of the Department’s Office of
the Chief Information Officer (OCIO) within the Office of the Secretary (OS), coordinates with
the Department’s Computer Security Incident Response Team (DOC CIRT) to provide
incident detection and response services to seven bureaus with headquarters located at HCHB.
Our objective was to determine whether key security measures are in place to adequately
monitor networks, detect malicious activities, and handle cyber incidents. See appendix A for
details regarding our objective, scope, and methodology.

We found that (1) bureaus’ actions in response to suspicious network activities may not stop
cyber attacks in a timely manner and (2) lack of collaboration prevents the bureaus from
realizing full benefits of incident detection and response capabilities provided by Managed
Trusted Internet Protocol Services.

    I.	       Bureaus’ Actions in Response to Suspicious Network Activities May Not
              Stop Cyber Attacks in a Timely Manner

Incident detection is the process of monitoring network activities and analyzing them for signs
of possible security violations or imminent cyber attacks. Various network activities, such as
executing malware or gaining unauthorized access to systems from the Internet, can trigger a
potential cyber security incident. To effectively respond to a potential incident, responders
must quickly analyze and validate each incident by following an established process. Based on
National Institute of Standards and Technology (NIST) guidance,3 responders should:

       1.	 Rapidly perform an initial analysis to determine the incident’s scope, such as which
           networks, systems, or applications are affected; who or what originated the incident;
           and how the incident is occurring.

       2.	 Based on that analysis, prioritize subsequent activities, such as containment of the
           incident and deeper analysis of the effects of the incident (e.g., incident responders may
           decide to prevent a cyber attack by blocking all network traffic originating from the
           attacker’s computer).

       3.	 Document each step taken in the course of incident handling.

All bureaus we reviewed have established incident detection and response capabilities, although
the extent of these capabilities varies. For example, one bureau provides around-the-clock
                                                            
3
  U.S. Department of Commerce, National Institute of Standards and Technology, August 2012. Computer Security
Incident Handling Guide: Recommendations of the National Institute of Standards and Technology, SP 800-61, Rev. 2.
Gaithersburg, MD: NIST.


FINAL REPORT NO. OIG-14-017-A                                                                                        2
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

monitoring coverage at an operations center, whereas another provides monitoring at a center
by having only two incident detection analysts working regular business hours. To see how the
bureaus responded to real-time incidents, we used an automated web application security
assessment tool to test their public-facing Web sites by accessing them from the Internet.
Testing the Web sites simulated a cyber event consisting of prolonged suspicious network
traffic that mimics real-world hacking techniques and cyber attacks. We analyzed information
such as intrusion detection system (IDS) logs and alerts generated during the test, and
evaluated actions taken by the bureaus in response to our testing.

Although all five bureaus’ automated tools detected and logged our testing activities, we found
that (1) one bureau performed analysis of our simulated cyber event and intervened to
completely block our testing; (2) one bureau did not analyze our simulated cyber event in a
timely manner; and (3) three bureaus did not perform any analysis and did not take any action
to respond to our testing.

Below is a summary of bureaus’ actions in response to our testing:4

       	 Bureau 1 conducted timely analysis of the cyber attack generated by our testing and,
          before our testing was complete, contacted its service provider and requested that all
          traffic originating from our test computer be blocked.

       	 Bureau 2 did not perform timely analysis of the cyber attack generated by our testing:
          analysis was performed 4 days after our testing was completed. The only incident
          responder assigned to analyze alert data generated by one of bureau 2’s incident
          detection tools was not available as a result of funding limitations. Bureau 2 concluded
          that the systems we tested were patched and protected by its automated security tools
          and, therefore, took no further actions. According to bureau 2, since our test, it has
          made incident alert data available to multiple responders.

       	 Bureau 3 did not take any action to respond to the cyber attack generated by our
          testing. Although bureau 3’s process specifically requires the blocking of network traffic
          similar to that generated by our testing, according to bureau 3 officials, it only had an
          informal discussion about this cyber event. Bureau 3 is currently working on improving
          its incident handling process.

       	 Bureau 4 did not take any action to respond to the cyber attack generated by our
          testing. Bureau 4 only has two analysts; according to its manager, at the time of our test,
          both of them were unavailable to respond to our simulated cyber attack. We found
          that, in addition to incident detection, these two analysts have other job responsibilities,
          such as data loss prevention, antivirus/malware management, and vulnerability
          assessment. Currently, bureau 4 is considering hiring an additional analyst.

       	 Bureau 5’s incident responders did not intervene to completely block our testing
          activities. Nevertheless, one day after our testing, bureau 5 did categorize the computer
          used to conduct our testing among its “top 20 attackers prevented” in its daily
                                                            
4
    For security reasons, we do not identify bureaus in our summary.


FINAL REPORT NO. OIG-14-017-A                                                                          3
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

              management briefing report. This report was based on the fact that some, but not all, of
              our testing traffic was blocked by bureau 5’s automated security tool. This report could
              give bureau 5 management the impression that a cyber attack originating from that
              computer was prevented, even though it actually was not. Bureau 5 officials
              acknowledged that the incident responder did not follow the proper process to respond
              to our testing, and this individual is no longer with bureau 5. According to bureau 5, it
              has recently made improvements to its incident handling process, including
              reorganization of its incident responder teams.

While testing Web sites, we identified critical- and high-risk vulnerabilities that can be exploited
to compromise bureaus’ systems as well as users’ computers. We issued vulnerability scanning
report memorandums to two affected bureaus. In response, the bureaus took action to
remediate identified vulnerabilities. Delays in detecting and responding to suspicious network
traffic could allow an adversary enough time to look for vulnerabilities, use identified
vulnerabilities to compromise systems and networks, and potentially exfiltrate sensitive
information. Therefore, early detection and response to potential cyber security incidents is a
crucial step in stopping cyber attacks in a timely manner and thus better protecting information
systems and assets.

    II.	      Lack of Collaboration Prevents the Bureaus From Realizing Full Benefits of
              Incident Detection and Response Capabilities Provided by Managed Trusted
              Internet Protocol Services

The Office of Management and Budget (OMB)’s Trusted Internet Connection (TIC) initiative5
mandates that federal agencies optimize and standardize the security of their individual external
network connections, including connections to the Internet. TIC’s goal is to improve the
federal government’s security posture and incident response capability through the reduction
and consolidation of external connections and provide enhanced monitoring and situational
awareness of the connections. Federal agencies can comply with this mandate by acquiring
Managed Trusted Internet Protocol Services (MTIPS) through the General Services
Administration’s Networx contract.6

MTIPS offers Internet service and a bundle of security services—these include providing
around-the-clock centralized monitoring and control of the network perimeter (network
gateway), scanning all network traffic entering or leaving internal networks, detecting and
preventing malicious activities, generating alerts and records of suspicious events, and managing
firewalls. If effectively utilized as intended, these security services should provide the first line of
defense to federal agencies’ interconnected networks, as well as enhance agencies’ existing
incident detection and response capabilities.


                                                            
5
  Office of Management and Budget, November 20, 2007. Implementation of Trusted Internet Connections (TIC),
Memorandum M-08-05. Washington, DC: OMB. Also see OMB, August 28, 2008. Transition from FTS2001 to
Networx, Memorandum M-08-26. Washington, DC: OMB.
6
  OMB, August 28, 2008. Transition from FTS2001 to Networx, Memorandum M-08-26. Washington, DC: OMB.


FINAL REPORT NO. OIG-14-017-A                                                                                 4
  DEPARTMENT OF COMMERCE
U.S.                                                                                     OFFICE OF INSPECTOR GENERAL

Currently, BEA, ITA, OS,7 and USPTO acquire TIC services from the same MTIPS provider; BIS
will acquire services from that provider by mid-2014. Because MTIPS provides security services
in addition to Internet service, bureaus are paying substantially more for MTIPS than they
previously paid for Internet service (see table 1 below). While the bureaus fully rely on Internet
service provided by MTIPS, we found that they do not consider MTIPS security services
effective in supporting incident detection and response.

          Table 1. Pre-MTIPS Internet Service and MTIPS Monthly Costs, by Bureau

                                                                                      Current MTIPS
                                                               Pre-MTIPS monthly
                                                                                      monthly cost for
                       Bureau                                   cost for Internet
                                                                                    Internet service and
                                                                   service only
                                                                                      security services

                       USPTO                                        $28,027              $288,000a

                       BEA                                           $8,238                $14,853

                       ITA                                           $9,974                $29,239

                       OS                                           $11,000                $25,217

                    Source: BEA, ITA, OS, and USPTO
                    a
                      The MTIPS provider cost is significantly higher because USPTO increased the capacity requirements
                    of the network connection. USPTO stated that the cost of the same level of connectivity increased
                    about 240 percent after switching to MTIPS. 

The bureaus and the MTIPS provider share responsibilities for ensuring that MTIPS security
services are appropriately provided and effectively used. Thus, communication and coordination
between the provider and bureaus are crucial to utilizing MTIPS security services to the fullest
extent. We found that most communication between the bureaus and the provider occurred
when the bureaus initiated MTIPS services—and that little communication related to security
services has occurred since then.

In addition, these bureaus indicated that they were not receiving significant incident monitoring
and detection services. Some indicated they were receiving no security related notifications or
advisories from the MTIPS provider, whereas others indicated receiving only limited
notifications or advisories. For example: we learned from a discussion with the MTIPS provider
that, during a 3-month period (June–August 2013), the provider investigated 54 security issues,
including 2 potential attacks, associated with the bureaus’ systems. However, when we followed
up with the bureaus, they were completely unaware of these issues. Furthermore, one bureau
has not received any incident reports since October 2012, and other bureaus expressed
concern that the MTIPS portal used to communicate with the MTIPS SOC is not effective.

Each of the four bureaus we reviewed has its own set of tools that provide security services
similar to those provided by MTIPS. However, the bureaus have not determined which of the
                                                            
7
 Office of the Chief Information Officer within OS, provides MTIPS service access to the following bureaus: EDA,
Economic Statistics Administration, Minority Business Development Administration, National Telecommunications
and Information Administration, OIG, and OS.


FINAL REPORT NO. OIG-14-017-A                                                                                             5
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

MTIPS services that they are paying for could be used instead of, or as a supplement to, their
own services, which could allow for more effective use of MTIPS. For example: ITA, which uses
similar security tools as the MTIPS provider, chose not to rely on MTIPS security services. BEA
and USPTO asserted that the security tools they use are better than those used by the MTIPS
provider and thus minimally rely on MTIPS security services. OS realized that it is not fully
utilizing MTIPS security services and, at the time of this audit, has initiated an assessment
involving interaction with the MTIPS provider to leverage MTIPS services to reduce or
eliminate security services currently handled in-house. ITA, BEA, and USPTO have not done
similar assessments. These assessments could lead to potential cost savings.

In addition, we found that the SOCs for three bureaus we reviewed do not provide around-
the-clock staffing coverage. These bureaus could possibly use MTIPS services to fill gaps in
monitoring coverage of external Internet facing connections when their own SOCs are not
staffed.

Other Matter

The Department has a long-term initiative—the Enterprise Security Oversight Center—to
enhance Department-wide security situational awareness, by providing near-real-time
cybersecurity status information and timely decision making for both the Department and its
bureaus. In support of this initiative, OCIO arranged to have the Department of Homeland
Security (DHS) conduct an independent assessment focusing on incident management
capabilities within the Department beginning in June 2013. This assessment originally intended
to include both SOCs at NOAA and HCHB. However, OCIO SOC management later decided
to exclude HCHB SOC from the assessment. As a result, the Department missed an
opportunity for the independent assessor’s in-depth review to identify weaknesses in the
HCHB SOC.

Recommendations

    We recommend that the Department’s Chief Information Officer work with the bureaus’
    management to ensure that:

        1.	 Bureaus follow NIST’s Computer Security Incident Handling Guide to take timely action
            in response to potential cyber attacks.

        2.	 Bureaus without around-the-clock SOC coverage work with the MTIPS provider to
            evaluate MTIPS services to fill gaps in SOC coverage after business hours.

 




FINAL REPORT NO. OIG-14-017-A                                                                    6
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

        3.	 Bureaus interact with the MTIPS provider to (a) explore opportunities that leverage
            MTIPS services to reduce or eliminate security services currently handled by the
            bureau and (b) ensure that MTIPS security services are fully delivered and effectively
            utilized.

        4.	 Determine the feasibility and cost effectiveness of independently assessing incident
            management capabilities at all bureaus’ SOCs.


 




FINAL REPORT NO. OIG-14-017-A                                                                      7
  DEPARTMENT OF COMMERCE
U.S.                                                             OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
In response to our draft report, the Department concurred with the overall findings and
recommendations. In addition, the Department noted OIG’s concern regarding
communications between four of the bureaus, as outlined in the draft report and the MTIPS
provider. The Department plans to meet with the provider to discuss security services
rendered to all of its operating units.

The Department’s response is provided in appendix B.

 




FINAL REPORT NO. OIG-14-017-A                                                               8
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL


Appendix A: Objective, Scope, and
Methodology
Our objective was to determine whether key security measures are in place to adequately
monitor networks, detect malicious activities, and handle cyber incidents. We reviewed the
overall Department incident management process, including monitoring, detection and
response.

In March 2013, we conducted a survey of all the Department’s bureaus to gather background
information about their incident handling capabilities. Based on this survey, we selected USPTO,
ITA, HCHB SOC, BEA, and BIS for in-depth review. To avoid duplicative work, we did not
include Census because it had been previously assessed by GAO in 2012–2013. Also, we did
not include NOAA because of a separate ongoing OIG review of its IT security program.

We reviewed internal controls significant within the context of our audit objective and
employed a comprehensive methodology to validate the bureaus’ incident detection and
response practices. Specifically, we

    	       Reviewed applicable laws, regulations, and NIST guidance.

    	       Examined bureaus’ incident detection and response policies and procedures, as well
             as reviewed MTIPS contract and supporting documentation.

    	       Interviewed Department OCIO senior executives and managers responsible for
             incident management.

    	       Interviewed bureaus’ IT security officers and incident responders, as well as MTIPS
             provider officials and DHS United States Computer Emergency Readiness Team
             personnel.

    	       Validated bureaus’ analytical process for incident handling by observing their security
             analysts’ day-to-day actions to detect, respond to, recover from, and document
             incidents.

    	       Validated bureaus’ responses to a cyber incident by using an automated software
             tool to generate prolonged suspicious network traffic directed at bureaus’ public-
             facing Web sites in order to simulate cyber attacks and thus trigger actions from
             selected bureaus’ incident responders.

We conducted our fieldwork from February 2013 to October 2013 at the Department’s offices
in the Washington, DC, metropolitan area. We performed this audit under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
April 26, 2013, and in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


FINAL REPORT NO. OIG-14-017-A                                                                      9
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.




FINAL REPORT NO. OIG-14-017-A                                                                    10
  DEPARTMENT OF COMMERCE
U.S.                                             OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response 





                                011200000162 




FINAL REPORT NO. OIG-14-017-A                                            11
